NO 19IN THE
SUPREME COURT OF THE UNITED STATES

MICHAEL S, BARTH,
PETITIONER,
V.
BERNARDS TOWNSHIP, ET AL.y
RESPONDENTS.
ON PETITION FOR A WRIT OF CERTIORARI TO THE NEW JERSEY SUPREME COURT
CERTIFICATE OF COMPLIANCE AND PROOF OF SERVICE
I, Michael S. Barth hereby certify that relying on the Microsoft Word feature that the length of
the petition in the above referenced matter complies with the 9,000 word limitation.
PROOF OF SERVICE
I, Michael S. Barth hereby declare that on this day December 16, 2019 that 40 copies of this
Petition for Writ of Certiorari was mailed to the United States Supreme Court and that three (3)
copies of a Petition for Writ of Certiorari was mailed on this day U.S. Postal Service Certified
Mail to: .
7015 0640 0004 0035 2726
New Jersey Attorney General Office
Michelline Capistrano Foster, DAG
25 Market Street
Trenton, NJ 08611
RESPECTFULLY SUBMITTED

NMg
MICHAEL S. BARTH
' N\
P.O. BOX 832
FAR HILLS, NEW JERSEY 07931
917-628-6145

7015 0640 0004 0035 2719
Martin Allen, Esq.
DiFrancesco Bateman
18 Mountain Blvd.
Warren, N.J. 07059

